Audit of USAID-Financed Human Rights Activities in
Colombia

Audit Report No. 1-514-03-002-P

December 13, 2002




                San Salvador, El Salvador
December 13, 2002

MEMORANDUM
FOR:           USAID/Colombia Director, Kenneth C. Ellis

FROM:          RIG/San Salvador, Timothy E. Cox

SUBJECT:       Audit of USAID-Financed Human Rights Activities in Colombia
               (Report No. 1-514-03-002-P)


This memorandum is our report on the subject audit.

Management’s comments on the draft report were considered in preparing this
report. They are included for your reference in Appendix II.

This report contains three recommendations. Management decisions have been
made for the three recommendations. The Office of Management Planning and
Innovation will make a determination of final action after the recommendations
have been completely implemented.

Once again, I appreciate the cooperation and courtesy extended to my staff during
the audit.




                                                                              1
Table of   Summary of Results                                                 3
Contents
           Background                                                         3

           Audit Objectives                                                   4

           Audit Findings                                                     4

                  How have USAID/Colombia funds been spent under
                  the human rights program?                                  4

                  Were USAID/Colombia-financed human rights activities
                  on schedule to achieve planned outputs?                    5

                         Prevention of Human Rights Abuses                    6

                         Protection of Human Rights Workers                   7

                         Response to Human Rights Violations                  8

                         Activities Behind Schedule or Not Started
                         May Impact Results                                  10

                  Did USAID/Colombia implement a monitoring system
                  for its human rights activities in accordance with USAID
                  policies?                                                  11

                         Monitoring Activities Were Not Documented           12

                         Results Indicator Necessary                         12

           Management Comments and Our Evaluation                            13

           Appendix I - Scope and Methodology                                14

           Appendix II - Management Comments                                 17




                                                                             2
Summary of   As part of its fiscal year 2002 audit plan, the Regional Inspector General/San
Results      Salvador performed this audit to determine 1) how USAID/Colombia funds have
             been spent under the human rights program, 2) if USAID/Colombia-financed
             human rights activities were on schedule to achieve planned outputs, and 3)
             whether it implemented a monitoring system for its activities in accordance with
             USAID policies (page 4).

             As of June 30, 2002, USAID’s implementing partner for human rights activities,
             Management Sciences for Development (MSD) had expended $541,780 on
             prevention of human rights abuses, $2,420,367 on protection of human rights
             workers, $1,283,049 on programs to improve responses to human rights abuses, and
             $1,826,286 on management costs (page 5).

             Twenty-two of 30 activities we reviewed were on schedule to achieve planned
             outputs as of June 30, 2002. Of the eight activities that were not on schedule, four
             had not been started (page 5).

             USAID/Colombia implemented a monitoring system for its human rights activities
             in accordance with USAID policies (page 11). However, the mission did not define
             data quality assessment procedures in its performance monitoring plan (page 12).
             Finally, an indicator to judge the effectiveness of the program’s early warning
             system has not been developed (page 12).

             USAID/Colombia agreed with the recommendations in this report, and
             management decisions have been made for the recommendations. The Office of
             Management Planning and Innovation will determine final action after the
             recommendations have been implemented (page 13).




Background   USAID/Colombia established its current strategic plan in May 2000 for FY 2000
             - 2005. The strategic plan was written in anticipation of the “Plan Colombia”
             supplemental appropriation for $119.5 million that was signed on July 13, 2000.

             The strategic plan established the strategic objective to “promote more
             responsive, participatory, and accountable democracy.” This objective includes
             human rights activities (the subject of this audit) as well as justice,
             decentralization, anti-corruption, and peace process activities. The focus of the
             human rights program is “enhanced and broadened respect for human rights.”
             Objectives under the program include:

             •   Development and implementation of an early warning system to alert
                 Colombian authorities of specific threats where the potential for human rights
                 abuses is high.



                                                                                             3
             •   Assistance to the human rights worker protection program managed by the
                 Government of Colombia’s Ministry of Interior. Under this program,
                 threatened individuals can apply to the Ministry for financial assistance,
                 airline tickets, or communications equipment. Threatened organizations can
                 request security upgrades for their offices.

             •   Implementation of activities designed to strengthen the ability of Colombian
                 groups to respond to human rights abuses. By providing assistance to these
                 organizations, USAID plans to strengthen the institutions involved in human
                 rights activities, improve citizen awareness of human rights issues, strengthen
                 human rights monitoring and case reporting, and provide human rights
                 training.



             As part of its fiscal year 2002 audit plan, the Regional Inspector General/San
Audit
             Salvador performed this audit to answer the following questions:
Objectives
             •      How have USAID/Colombia funds been spent under the human rights
                    program?

             •      Were USAID/Colombia-financed human rights activities on schedule to
                    achieve planned outputs?

             •      Did USAID/Colombia implement a monitoring system for its human rights
                    activities in accordance with USAID policies?

             The audit scope and methodology are presented in Appendix I.



Audit        How have USAID/Colombia funds been spent under the human rights
             program?
Findings
             On March 27, 2001, USAID/Colombia signed a five-year contract with
             Management Sciences for Development, Incorporated (MSD) to implement the
             activities under the human rights program. MSD is the sole implementer of the
             human rights program. The program funding details are as follows:

              Activity Area                                            Amount
              Prevention of Human Rights Abuses                      $3,999,063
              Protection of Human Rights Workers                      8,341,096
              Response to Human Rights Violations                     9,021,707
              Management Costs                                        6,531,286
              Total                                                 $27,893,152


                                                                                              4
According to MSD’s June 30, 2002 invoice, MSD had invoiced USAID
approximately $6.1 million. The breakdown is as follows:

                                                                 Amount
 Prevention of Human Rights Abuses
    • Create an early warning system                             $348,641
    • Provide video equipment for the national                    193,139
       strategy room
                      Subtotal                                    541,780

 Protection of Human Rights Workers
    • Strengthen the Ministry of Interior                          71,423
    • Furnish armored and unarmored vehicles,                   2,299,414
        financial assistance, airline tickets, and
        communications equipment to threatened
        individuals and security upgrades for
        vulnerable offices
    • Monitoring and evaluation                                    49,530
                         Subtotal                               2,420,367

 Response to Human Rights Violations
    • Develop and implement human rights policies                 169,005
    • Improve the delivery of human rights services               854,061
    • Provide human rights education                              153,323
    • Monitor human rights cases                                  106,660
                     Subtotal                                   1,283,049

 Management Costs                                               1,826,286

 Total                                                         $6,071,482

Were USAID/Colombia-financed human rights activities on schedule to
achieve planned outputs?

The majority of USAID/Colombia-financed human rights activities were on
schedule; however, activities that have not started may limit the program’s final
effectiveness. Twenty-two of 30 activities we reviewed were on schedule to
achieve planned outputs as of June 30, 2002. Of the eight activities that were not
on schedule, four had not been started.

Activities were classified into three areas – 1) prevention of human rights abuses; 2)
protection of human rights workers; and 3) response to human rights violations.
The activities from each area are discussed in the sections that follow.




                                                                                5
Prevention of Human Rights Abuses

The following activities related to preventing human rights abuses were on
schedule:

•   Develop the essential functions of an early warning system (EWS) and form
    the EWS team. This included developing a strategic plan and training EWS
    team members. To develop the essential functions of the EWS, the strategic
    plan was finalized in January 2002 as part of the work plan. Training was
    provided to EWS staff, regional ombudsmen, and municipal human rights
    workers to develop the role and function of the EWS.

•   Establish sources and processes for collecting and analyzing information on
    specific human rights risks, threats, or vulnerabilities facing communities.
    Relationships were established with various agencies within the Government
    of Colombia and procedures were defined.

•   Establish procedures for communicating alerts with recommended actions to
    the Colombian Human Rights Ombudsman and to other state entities to elicit
    responses in order to preempt the potential human rights threat. The
    communications strategy was completed in early 2002, and the EWS web site
    was established in July 2002.

•   Develop a regional focus and approach for the EWS by defining a regional
    strategy and by expanding EWS coverage to priority zones. The regional
    strategy was defined by November 2001. To implement the strategy, USAID
    and MSD decided to accelerate the deployment of regional coordinators. The
    original plan called for two regional centers to be established in 2002.
    Instead, the full deployment of 15 centers became the goal for the year. By
    June 30, 2002, there were seven regional coordinators functioning in place.

•   Support the national strategy room through the purchase of video equipment
    and peripherals. In this area, USAID funded the installation of a video wall,
    sound system, projectors, and control equipment. The equipment can be used
    for presentations and enables real-time videoconferences.

•   Develop support within the various state entities involved in the EWS to
    define policies and models for collecting and analyzing information in order
    to improve the credibility of EWS alerts. A committee of Colombian
    government agencies was formed to coordinate human rights issues.

•   Establish mechanisms for follow-up and feedback on alerts issued through
    the EWS. A national system on prevention was created to involve high level
    government officials to make decisions regarding responses to alerts issued
    by the EWS.



                                                                             6
The following activities related to preventing human rights abuses were not on
schedule:

•   Establish public communication and education related to the EWS to
    promote public participation in collecting information. Through public
    collaboration in the process, the ability to develop credible alerts should be
    improved. According to MSD, curriculum development and training for the
    beneficiary community has not started. These activities were put on standby
    until all the EWS regional coordinators could be selected, hired, and
    deployed to their regions. However, the EWS office launched a web site in
    July 2002 to promote public communication.

Protection of Human Rights Workers

The following activities related to human rights protection were on schedule:

•   Determine which needs at the Ministry of Interior could be served by
    USAID’s human rights program and prioritize those needs. Equipment,
    facilities, systems, and training needs were identified.

•   Expand the Ministry of Interior’s beneficiary population to include
    vulnerable groups that did not have access to the program. Eligibility under
    the program has been extended to municipal human rights workers and city
    officials.

•   Provide financial assistance, airline tickets, and communications equipment
    to threatened individuals. USAID planned to provide 2,400 benefit awards
    by the end of 2002. As of June 30, 2002, the number of awards provided was
    2,448.

•   Provide armored and unarmored vehicles to threatened individuals and
    organizations and security upgrades for vulnerable offices. USAID planned
    to upgrade security at 24 offices by June 30, 2002 and to provide 33 vehicles
    during the year. By June 30, 2002, there were 30 upgraded offices and 17
    vehicles delivered. Another 15 vehicles were scheduled for delivery in
    August.

•   Assist human rights workers to develop a culture of preventive security
    through workshops, seminars, or conferences to discuss the basics of
    preventive security and include information on the protection program.

•   Document and review the protection program’s status with officials from the
    Human Rights Office in the Ministry of Interior. A regular monthly meeting
    with the Ministry has been scheduled and was being held.



                                                                              7
•   Provide the protection office at the Ministry of Interior with office equipment
    and security upgrades to improve its management. This activity included
    remodeling the Ministry’s offices with security equipment, providing office
    furniture, cubicles, and computers, and installing management control
    software for monitoring activities.

The following activities related to human rights protection were not on schedule:

•   Secure additional funding sources for the Ministry of Interior’s protection
    program. According to MSD, it has made efforts to secure additional
    funding but has been unsuccessful to date.

•   Develop criteria and procedures for selecting protection program
    beneficiaries. Activities under this area had not started as of June 30, 2002.

•   Design and implement a risk assessment system for identifying beneficiaries
    and undertaking programs to train staff members who are responsible for
    analyzing risks and providing protection. Activities under this area had not
    started as of June 30, 2002.

Response to Human Rights Violations

The following activities related to improving responses to human rights abuses
were on schedule:

•   Provide technical assistance to municipal human rights workers to ensure
    effective response to human rights needs in the community. As of June 30,
    2002, work completed in this area identified obstacles and made
    recommendations to improve the effectiveness of municipal human rights
    workers.

•   Provide community human rights education. A sub-contractor to MSD
    developed the curriculum and teaching materials that will be used. The
    materials cover fundamentals of human rights, including themes such as
    authority, responsibility, and justice.

•   Create and/or strengthen human rights networks in vulnerable populations
    throughout the country. MSD’s work plan outlined that MSD would design
    joint action plans with identified networks. As of June 30, 2002, MSD had
    funded over 20 human rights projects with a variety of implementing partners.

•   Unify experiences and know-how among human rights offices within the
    Colombian Government. An interagency framework has been developed to
    provide the basis for collaboration.



                                                                               8
•   Develop and implement a plan to strengthen training in human rights.
    Several universities have agreed to conduct research into human rights and
    create teaching programs. Additionally, several universities committed to
    send delegations to American University for training.

•   Develop an educational project with the national police. MSD’s work plan
    outlined that a curriculum would be developed by June 30, 2002. By that
    date, a pilot course with a local police force had been designed.

•   Ratify the International Criminal Court Statute, which will provide
    Colombians with an international tool for protection to reduce impunity with
    respect to human rights violations. MSD’s work plan detailed that work
    would be done by mid-2002 to explain the reasons for the bill. We did not
    test whether MSD completed these explanations, since the bill was passed
    before our field work was completed.

•   Strengthen the capacity of the Office of the Vice President to define public
    policy related to human rights. The Office of the Vice President developed a
    methodology for monitoring human rights cases. Also, two studies on human
    rights topics were completed.

The following activities related to improving responses to human rights abuses
were not on schedule:

•   Develop a national network of human rights promoters with the
    Ombudsman’s Office. The planned public awareness campaign and alliance
    building with the mass media had not begun. Also, the planned training of
    400 human rights leaders will be completed approximately six months behind
    schedule.

•   Strengthen the Human Rights Office in the Ministry of Interior. This activity
    consists of providing seminars, workshops, and lectures on human rights
    subjects. Although a couple sessions have been held, a training schedule has
    not been developed to systematically guide efforts.

•   Incorporate human rights education into the school system. Activities under
    this area had not started as of June 30, 2002.

•   Formulate a National Action Plan on Human Rights. According to MSD, the
    necessary level of interest had not developed within the government of
    Colombia to pursue activities under this area.




                                                                            9
Activities Behind Schedule or Not Started May Impact Results

As identified in the preceding sections, activities under eight areas were behind
schedule or had not started as of June 30, 2002. The delays resulted from several
causes. The following table lists those causes:

     Activity                           Reason for delay
     Public communication and education Activities preempted by focus
     related to EWS                     to recruit and train additional
                                        EWS analysts

     Secure additional funding sources      Insufficient resources applied to
     for the Ministry of Interior’s         activity
     protection program

     Develop criteria and procedures for    Resources not applied to
     selecting protection program           activity pending a non-USAID
     beneficiaries                          funded evaluation of the
                                            protection program

     Design and implement risk              Resources not applied to
     assessment system and provide          activity pending a non-USAID
     training related to the protection     funded evaluation of the
     program                                protection program

     Develop a national network of          Unrealistic work plan schedule
     human rights promoters

     Strengthen the Human Rights Office     Insufficient number of planned
     in the Ministry of the Interior        training activities

     Incorporate human rights education     Resources not applied to the
     into the school system                 activity

     Formulate a National Action Plan on    Resources not applied to
     Human Rights                           activity pending an
                                            administration change in the
                                            government of Colombia


For the most part, the causes identified above reflect choices made by management
in response to external and internal factors. We recognize that flexibility in
executing work plans is necessary and that implementation strategies may change
over time. However, the overall impact on the human rights program of the



                                                                                10
activities that were behind schedule needs to be considered. Not completing
activities as planned may diminish the effectiveness of the program.

       Recommendation No. 1: We recommend that
       USAID/Colombia review the result areas where activities are
       behind schedule or have not been started. As part of the
       review, USAID/Colombia should: 1) collaborate with
       Management Sciences for Development to determine why
       activities are behind schedule or have not started; 2) determine
       how other activities in the work plan are impacted by the
       delayed activities; and 3) determine if planned program results
       can be achieved with the time and funding remaining under
       the contract.

Did USAID/Colombia implement a monitoring system for its human rights
activities in accordance with USAID policies?

USAID/Colombia implemented a monitoring system for its human rights activities
but did not document a contract monitoring plan nor define data quality assessment
procedures as required by the Automated Directives System (ADS). Additionally,
performance indicators used by the mission related to the early warning system
(EWS) do not demonstrate the effectiveness of the EWS in preventing human rights
abuses.

The mission’s monitoring system included the following components:

•   Reviewing and approving deliverables.

•   Analyzing financial reports.

•   Reporting variations, proposing substitutions, and resolving problems in the
    implementation of projects.

•   Recommending modifications to ongoing activities.

•   Approving invoices.

•   Preparing an annual contractor performance report.

•   Conducting site visits.

The mission did not document a contract monitoring plan nor define data quality
assessment procedures. These relatively minor deficiencies are discussed below.




                                                                              11
Monitoring Activities Were Not Documented

The mission did not document a contract monitoring plan as outlined by ADS
202.3.4.1 nor define data quality assessment procedures in its performance
monitoring plan (PMP) as required by ADS 201.3.4.13. According to mission
officials these plans and procedures were not documented because of a lack of
familiarity with the ADS requirements.

We are not making a formal recommendation to document a contract monitoring
plan because USAID/Colombia was executing monitoring steps that should be
performed. However, data quality assessment procedures were not defined in the
PMP and actions had not been taken to confirm data quality. As a result, unreliable
information may be relied upon for decision making. We are making the following
recommendation:

       Recommendation No. 2: We recommend that
       USAID/Colombia document data quality assessment
       procedures for the human rights program in its performance
       monitoring plan.

Results Indicator Necessary

USAID/Colombia’s performance monitoring plan (PMP) was one of the
documents we reviewed to determine whether the mission implemented a
monitoring system. As part of the analysis we noted that the indicators used for
the early warning system (EWS) measured the system’s outputs (or ability to
issue warnings) but did not measure the effectiveness of the warnings in
preventing human rights abuses.

USAID policy (ADS 203.3.6.3) allows strategic objective teams to operate with
indicators that measure outputs during the first two years of implementation.
Accordingly, results indicators should be developed by the objective’s third year.
The mission indicated that designing an indicator to measure the effectiveness of
the EWS was complicated. Therefore, the mission relied on output indicators to
demonstrate progress toward achieving results.

By not including the results indicator that will be used to measure the
effectiveness of the EWS in the later years of the activity, USAID will not
demonstrate whether the EWS is effective in meeting USAID’s objective to
prevent human rights abuses. Consequently, we are making the following
recommendation:

       Recommendation 3: We recommend that USAID/Colombia
       develop an indicator that demonstrates the effectiveness of the
       early warning system in preventing human rights abuses.



                                                                             12
                 USAID/Colombia agreed with the recommendations in this report, and
Management       management decisions have been made for the recommendations. The Office of
Comments and     Management Planning and Innovation will determine final action after the
Our Evaluation   recommendations have been implemented.

                 USAID/Colombia suggested a few factual corrections for the final report. We
                 reviewed the suggestions and made changes where appropriate.

                 Management comments were included in their entirety in Appendix II.




                                                                                         13
                                                                                      Appendix I


Scope and     Scope
Methodology
              We audited USAID-financed human rights activities in Colombia in accordance
              with generally accepted government auditing standards. On March 27, 2001,
              USAID/Colombia signed a five-year contract with Management Sciences for
              Development, Incorporated (MSD) to implement the activities under the human
              rights program. MSD is the sole implementer of the human rights program.

              We conducted the audit at USAID/Colombia’s and at MSD’s offices. We
              conducted the audit from August 26, 2002 through September 13, 2002, and it
              covered the period from March 27, 2001 (the date the contract was signed) to June
              30, 2002. The audit focused on how funds have been spent under the human rights
              program, if the mission’s human rights activities were on schedule to achieve
              planned outputs, and whether the mission implemented a monitoring system for its
              human rights activities in accordance with USAID policies.

              Methodology

              To answer the audit objectives, we reviewed documentation at
              USAID/Colombia’s and at MSD’s offices. This documentation included
              Mission Accounting and Control System (MACS) reports, contractor
              expenditure information, MSD’s 2002 work plan, documentation of activities
              achieved, and documentation supporting the mission’s contract monitoring
              activities. In addition, we interviewed officials both at the mission and at MSD’s
              offices.

              We evaluated USAID/Colombia’s management controls for monitoring program
              activities. In addition to the audit work performed under the third objective in
              this report, which relates to management’s control activities, we interviewed
              management to identify and to judge the effectiveness of management controls.

              To answer the first audit objective, we obtained MACS reports and MSD’s
              itemized invoice as of June 30, 2002. We also discussed funding of the human
              rights program with USAID/Colombia’s Controller.

              Concerning the second audit objective, we selected 30 out of 34 activities from
              MSD’s work plan that had timeline targets. The 30 were selected because we noted
              significant activities with substantial levels of progress expected by June 30, 2002.

              Within each of those 30 activity areas, we judgmentally selected one or more
              sub-activities for testing. Testing consisted of determining if the activity was
              completed or on schedule as of June 30, 2002. We did not judge whether
              activities were appropriate for a human rights program.




                                                                                            14
                                                                         Appendix I

Site visits were made to the National Security Room at the National Palace, to
the Ministry of Interior, and to the offices of the early warning system (EWS).
At the National Security Room, we verified the existence of equipment
purchased with USAID funding. At the Ministry of Interior, we interviewed
Ministry officials and toured remodeled office space. At the offices of the EWS,
we judgmentally selected 25 out of 138 alerts issued as of June 30, 2002 to test
alerts issued and examine response letters made by authorities. We used a
judgmental sample because of the relatively small population and because we
judged the risk of error to be low. Finally, we statistically sampled 109 out of
2,465 protection benefits provided as of June 30, 2002 to confirm that benefits
were provided. We accomplished this by examining purchase invoices and
copies of airline tickets provided to the beneficiaries. The sample was designed
to provide a 95 percent confidence level with a precision of plus or minus 4
percent assuming a 5 percent error rate. We used a statistical sample in this case
because the size of the population was relatively large.

To determine the significance of our findings for this objective, we judged that if
90 percent or more of the activities we reviewed were on schedule as of June 30,
2002, we would issue a positive opinion. We judged that if at least 70 percent of
the activities were on schedule, we would issue a qualified opinion. And, if less
than 70 percent of the activities were on schedule, then we would issue a
negative opinion. This determination of significance reflected our judgments
about the level of performance that was practical and achievable for the audited
activities.

Generally, we considered that an activity was on schedule as of June 30, 2002 if
it was completed within 2 months of the planned completion date. However,
when activities selected for testing were not completed on time, we considered
whether other compensating activities were completed.

As for the third audit objective, we interviewed USAID/Colombia’s cognizant
technical officer, reviewed the performance monitoring plan, and inspected
various documentation such as reports, correspondence, e-mails, notes, graphs,
tables, and charts.

To determine the significance of our findings for this objective, we judged that, at a
minimum, the mission should have implemented the following:

   •   for the strategic objective (or intermediate result), the mission developed
       a performance monitoring plan (PMP) (ADS 201.3.4.13).

   •   the mission performed the activities required under a contract monitoring
       plan (ADS 202.3.4.1).




                                                                                15
                                                                        Appendix I

   •   the mission reviewed performance and financial reports from the
       implementers (ADS 202.3.4.1 and 22 CFR 226.51).

   •   the mission assessed the quality and timeliness of key outputs (ADS 202.3.4
       and 22 CFR 226.51).

Our opinion would be positive if these minimum requirements were met. Our
opinion would be qualified if the minimums were not met, but the deficiencies were
judged to be minor in nature. Finally, our opinion would be negative if the
deficiencies were judged to be major. We adapted the definitions of “material
weakness” and of “reportable condition” in the General Accounting
Office/President’s Council on Integrity and Efficiency Financial Audit Manual
(Section 580.33) to guide our determination of major and minor deficiencies. As
such, a major deficiency was judged to be one that did not reduce to a relatively low
level the risk that monitoring objectives would be met. A minor deficiency was
judged to be one that should be communicated because it could adversely affect the
entity’s ability to meet monitoring objectives.




                                                                              16
                                                                                Appendix II


Management
Comments




MEMORANDUM                                                 November 20, 2002




To:                Timothy E. Cox, RIG/San Salvador.
From:              Kenneth Ellis, Mission Director, USAID/Colombia
Subject:           Responses to the RIG/ San Salvador Audit
                        Audit of USAID financed human rights activities in Colombia
                                          Audit Report No. 1-514-03-XXX-P
___________________________________________________________________________


USAID/Colombia appreciates the positive and constructive tone of the audit report and agrees
with the conclusions contained therein. In addition we believe the three recommended
actions in the report are appropriate and when implemented will improve management of the
Democracy Program.

However, we believe the following changes should be made to the Final Report:

1.    Prevention of Human Rights Abuses – Page 6 – bullet 4 change the number “eight
      coordinators” to “seven regional coordinators”.

2.    Protection of Human Rights Workers – Page 7 – bullet 4 change the number “24
      offices” to “20 offices” and “30 upgraded offices’’ to “35 upgraded offices’’.

3.    RIG considers as minor deficiency the nonexistence of a contract monitoring plan.
      According to the ADS/Washington team, it is not a requirement according to the ADS
      202, which uses the word “should” and we consider this non-mandatory language.




                                                                                      17
